XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
1300 I STREET, SUITE 125
P.O. BOX 944255
SACRAMENTO, CA 94244-2550

Public: (916) 445-9555
Telephone: (916) 210-6003
Facsimile: (916) 324-8835
E-Mail: Aimee.Feinberg@doj.ca.gov

February 19, 2020
Mr. Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Institute for Free Speech v. Becerra, No. 19-793

Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on December 18,
2019. Respondent waived the right to file a response to the petition on January 14,
2020. On January 30, 2020, the Court requested a response to the petition. That
response is currently due on March 2, 2020.
Pursuant to Rule 30.4, respondent respectfully requests that the time for
filing the response be extended by thirty days, up to and including April 1, 2020.
An extension of time would better enable preparation of a response that respondent
believes would be most helpful to the Court. In addition, since the Court requested
a response, two prospective amici have notified respondent of their intention to file
amicus curiae briefs in support of petitioner.

Respectfully submitted,
/s Aimee Feinberg
AIMEE FEINBERG
Deputy Solicitor General
For

XAVIER BECERRA
Attorney General

February 19, 2020
Page 2

cc:

Allen J. Dickerson
Counsel for Institute for Free Speech

